PROOF OF SERVICE
Petitioner, Skip Lee Hansen, Pro Se, hereby declares under penalty of perjury
that this Petition for a Writ of Certiorari has been mailed via U.S.P.S. First-Class
mail to- Scott S. Harris, Clerk of the United States Supreme Court, 1 1st Street NE
Washington, DC 20543. Petitioner further declares under penalty of perjury that true
and correct copies of this Petition for a Writ of Certiorari have been sent via U.S.P.S
First Class Mail to each of the following- the Clerk of the McCracken Circuit Court
P.O. Box 1455 Paducah, KY 42002; the Commonwealth Attorney, 301 S 6th Street
Paducah, KY 42003; Daniel Cameron, Kentucky Attorney General, Criminal Appeals
Division, 1024 Capital Center Drive Frankfort, KY 40601; and the Clerk of the
Kentucky Court of Appeals, 360 Democrat Drive Frankfort, KY 40601. All on this
22nd day of December, 2020.

Skip Lee'flansen, Petitioner, Pro Se
NOTARY STATEMENT
Subscribed and sworn to before me by Skip Lee Hansen on this 21st day of
December, 2020.

yy
NOTARY PUBLIC, State at Large: Kentucky
ID Number

eTty_____

My commission expires:

V

